OIG Audit Report GR-40-09-002

The Office of Justice Programs and the Office of Community Oriented Policing Services Grants Awarded to Team Focus, Inc. Mobile, Alabama
Audit Report GR-40-09-002
June 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has  completed an audit of Grant Numbers 2006-MU-FX-0295 and 2007-JU-FX-0013 awarded  by the Office of Justice Programs (OJP) and Grant Number 2006-CK-WX-0218  awarded by the Office of Community Oriented Policing Services (COPS) to Team  Focus, Inc. (TFI). TFI was established as a non-profit  organization to provide community-based and comprehensive outreach programs for  fatherless young men between the ages of 10 and 18.
Between November 2005 and May 2008, OJP  awarded TFI Grant Numbers 2006-MU-FX-0295, 2007-JU-FX-0013, and 2008-JL-FX-0554 totaling $2,153,576.  At  the time of our audit, TFI had not expended funds under Grant Number  2008-JL-FX-0554; therefore, we did not include this grant in our audit testing. COPS  awarded TFI Grant Number 2006-CK-WX-0218 totaling $148,084. The OJP and  COPS grants we reviewed totaled about $1.5 million. 
We  tested compliance with essential grant conditions pertaining  to internal controls, drawdowns, budget management and control, expenditures,  reporting, accomplishments, and monitoring contractors. In addition, we tested the accounting  records to determine if costs claimed under the awards were allowable,  supported, reasonable, and in accordance with applicable laws, regulations,  guidelines, and the terms and conditions of the grants. 
We  found weaknesses in TFI’s internal controls, drawdowns, accounting for expenditures, reporting, achievement of grant objectives, and  monitoring contractors.  As a result, we  identified $718,443 in questioned costs.  We found that  TFI:    

did not adequately separate the       duties of processing and paying expenditures,
engaged in hiring practices       that created the appearance of a conflict of interest, 
did not have procedures for       procuring and monitoring consultants hired to perform grant-related       services,    
did not maintain time and       attendance records and grant-related        activity reports for employees and consultants paid with grant       funds,
did not maintain adequate       documentation showing how it calculated its grant fund drawdowns and drew down $273,126 in grant funds for which       it had not made grant-related expenditures,
charged $445,317 to grant funds       that were either unallowable or not supported by documentation,
did not submit accurate and timely       Financial Status Reports,
did not submit timely progress       reports, and
did not achieve all  grant-related objectives.

These  concerns are discussed in detail in the Findings and Recommendations section of  the report.  Our audit objectives, scope, and methodology  appear in Appendix I.



 




Return to OIG Home Page